                All Small-Scale Information Technology
             Projects Should Be Included in the Investment
                  Inventory, and Related Procurement
              Requisitions Should Be Properly Reviewed
                             and Approved

                                 March 2005

                     Reference Number: 2005-20-050




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 16, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER



      FROM:                          Pamela J. Gardiner
                                     Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - All Small-Scale Information Technology
                                     Projects Should Be Included in the Investment Inventory, and
                                     Related Procurement Requisitions Should Be Properly Reviewed
                                     and Approved (Audit # 200420009)


      This report presents the results of our review of the procurement of information
      technology (IT) goods and services outside of the Modernization and Information
      Technology Services (MITS) organization. The overall objective of this review was to
      determine whether the Internal Revenue Service (IRS) ensures IT goods and services
      procured outside of the MITS organization are effectively controlled, compliant with the
      Enterprise Architecture (EA),1 do not duplicate other systems or initiatives, and follow a
      disciplined systems development life cycle.
      In summary, one of the major objectives contained in the IRS Strategic Plan Fiscal
      Years (FY) 2005 – 2009 is to modernize information systems to improve service and
      enforcement. For FY 2004, the IRS requested nearly $1.67 billion for its Information
      Systems budget. Approximately $534 million (32 percent) of the $1.67 billion was
      allocated for Automated Data Processing services, which include funding for the
      acquisition of data processing services from the private sector and the purchase of
      computer hardware and software.
      In August 2002, we reported2 the IRS’ process for selecting and monitoring systems
      improvement projects needed to be revised to comply with the requirements contained


      1
        In the IRS, the EA defines the IRS’ target business practices, the systems that enable the target business practices,
      and the technology that will support it, and serves as a guide to the IRS’ Modernization Program and investment
      decisions.
      2
        The Selection, Monitoring, and Management of Systems Improvement Projects, Such as the Print Consolidation
      Project, Need Modification (Reference Number 2002-20-138, dated August 2002).
                                                          2

in the Clinger-Cohen Act of 1996.3 The Clinger-Cohen Act requires agencies to use a
disciplined Capital Planning and Investment Control (CPIC)4 process to acquire, use,
maintain, and dispose of IT property. In November 2003, we also reported5 reviews of
IT procurement requisitions were not consistently performed to ensure computer
hardware and software purchases are consistent with the IRS’ current and
projected EA.
Corrective actions to those reports taken by the IRS included initiating a refined
enterprise-wide modernization governance process to prioritize the entire inventory of IT
and modernization projects on an annual basis. Other corrective actions taken by the
IRS included developing additional procedures, publishing an approved computer
equipment products list, and conducting reviews of submitted requisitions for computer
hardware and software purchases to ensure reviews for compliance with the EA are
conducted and documented.
While the IRS has completed several corrective actions to improve the CPIC process,
our analysis of 271 requisitions for IT goods and services submitted between
October 1, 2003, and July 7, 2004, determined system development projects funded by
the MITS organization via a Memorandum of Understanding (MOU) and projects not
funded by the MITS organization were most likely not to be identified by the CPIC
process and individually identified in the IRS’ IT investment portfolio.6 We also
determined requisitions submitted by organizations outside of the MITS organization
had an increased likelihood that required approvals and reviews were not properly
obtained and Requisition Summaries were not attached to the requisitions. In addition,
the Requisition Signatory Authority List, which is used to ensure requisitions have been
properly approved, has not been consistently updated. Without adequate management
controls over IT procurements initiated outside of the MITS organization, the IRS risks
acquiring IT goods and services that may duplicate other systems or initiatives,
spending funds on lower-priority projects, and acquiring IT systems that are not
compatible with the EA.
In addition, our analysis of requisitions determined project costs were not completely
captured to accurately assess investment results. While the IRS established a
unique five-digit Project Cost Accounting Subsystem (PCAS) code to accurately capture
project costs, we identified 3 requisitions totaling $681,522 submitted for the Automated
Background Investigation System on which the expenses were charged to 3 separate
codes not established for the project. We also identified 7 requisitions totaling $726,174


3
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
4
  The CPIC is a decision-making process for ensuring IT investments integrate strategic planning, budgeting,
procurement, and management of IT in support of agency missions and business needs.
5
  Reviews to Determine Architectural Compliance of Information Technology Acquisitions Need to Be Consistently
Performed and Documented (Reference Number 2004-20-017, dated November 2003).
6
  The IT investment portfolio is a list of current IT assets, resources, and investments owned or planned by an
organization to achieve its strategic goals, objectives, and mission.
                                             3

for 2 IT investment projects that were not assigned a unique PCAS code for tracking
expenditures. By not properly accounting for all costs, the IRS cannot determine the
actual results of the IT investment and comply with the Clinger-Cohen Act requirements
to identify significant deviations from costs, performance, or schedule.
To improve the identification of projects in the IT investment portfolio, processing of IT
requisitions, and accounting for project costs, we recommended the Chief Information
Officer (CIO) ensure the Internal Revenue Manual (IRM) and MOUs between the MITS
and other organizations are revised, as necessary. We also recommended the CIO
ensure the Requisition Signatory Authority List remains current, ensure the current
small-scale projects are identified and mapped into the IRS CPIC governance process,
and work with the Chief Financial Officer to ensure monies spent on small-scale
projects are accounted for separately. In addition, we recommended the CIO ensure a
mechanism is designed and implemented to identify all associated IT project costs,
regardless of the funding or PCAS codes used.
Management’s Response: IRS management agreed with six of our seven
recommendations. The IRS will revise existing MOUs and the IRM to specify that all
IT requisitions initiated by the business units are routed through the appropriate Division
Information Officer and the Director, Client Services, to ensure projects are included in
the IT portfolio, requisitions are properly reviewed and approved, and a Requisition
Summary is appropriately attached. In addition, all small-scale investments will be
mapped to the EA and to the EA-aligned executive steering committees, which execute
the CPIC governance processes. The IRS will also amend financial policy documents
to ensure accurate accounting of expenditures for small-scale projects and will establish
an annual process for updating the Requisition Signatory Authority List. Finally, the IRS
will ensure all requisitions are reviewed to ensure appropriate PCAS codes are used.
IRS management disagreed with our recommendation to establish a mechanism
designed and implemented to ensure all IT expenses are accurately identified and
associated with each IT investment project, regardless of the funding or PCAS codes
used. While management disagreed with our recommendation, we agree with their
statement that the adoption of the other recommendations constitutes an effective
mechanism to ensure the accurate identification and association of all IT expenses with
each IT investment project. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                  All Small-Scale Information Technology Projects Should
                   Be Included in the Investment Inventory, and Related
           Procurement Requisitions Should Be Properly Reviewed and Approved




                                                  Table of Contents


Background ............................................................................................... Page 1
Completed Corrective Actions Improved the Capital Planning
and Investment Control Process ............................................................... Page 3
The Portfolio of Information Technology Investments Is
Incomplete................................................................................................. Page 6
         Recommendations 1 through 3:.....................................................Page 9

Requisitions for Information Technology Goods and
Services Were Not Properly Reviewed and Approved .............................. Page 9
         Recommendation 4: .......................................................................Page 12
         Recommendation 5: .......................................................................Page 13

Project Costs Were Not Accurately Recorded........................................... Page 13
         Recommendation 6: .......................................................................Page 14
         Recommendation 7: .......................................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures............................................................ Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 21
               All Small-Scale Information Technology Projects Should
                Be Included in the Investment Inventory, and Related
        Procurement Requisitions Should Be Properly Reviewed and Approved

                               One of the major objectives contained in the Internal
Background
                               Revenue Service (IRS) Strategic Plan Fiscal Years
                               (FY) 2005 – 2009 is to modernize information systems to
                               improve service and enforcement. In support of this
                               objective, the IRS instituted a strategy to prioritize all
                               information technology (IT) projects to support business
                               operating needs, continually monitor the IT investment
                               portfolio,1 and ensure implemented systems meet technical
                               standards. For FY 2004, the IRS requested nearly
                               $1.67 billion for its Information Systems budget.
                               Approximately $534 million (32 percent) of the
                               $1.67 billion was allocated for Automated Data Processing
                               (ADP) services, which includes funding for the acquisition
                               of data processing services from the private sector and the
                               purchase of computer hardware and software.
                               The Clinger-Cohen Act of 19962 requires agencies to use a
                               disciplined Capital Planning and Investment Control
                               (CPIC)3 process to acquire, use, maintain, and dispose of IT
                               property. The Treasury Inspector General for Tax
                               Administration is currently conducting an audit to determine
                               whether the IRS CPIC process complies with the
                               requirements outlined in the Clinger-Cohen Act.
                               The IRS categorizes its IT investment projects into three tier
                               levels:
                                     • Tier A – These are large-scale projects, generally
                                       developed over a long time period, designed to
                                       modernize the IRS’ antiquated business systems to
                                       improve the speed, timeliness, and accuracy of tax
                                       administration. The Tier A projects are managed by
                                       the IRS Business Systems Modernization Office.
                                       The IRS receives a separate appropriation, in

                               1
                                 The IT investment portfolio is a list of current IT assets, resources, and
                               investments owned or planned by an organization to achieve its strategic
                               goals, objectives, and mission.
                               2
                                 Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of
                               5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C.,
                               22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C.,
                               41 U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                               3
                                 The CPIC is a decision-making process for ensuring IT investments
                               integrate strategic planning, budgeting, procurement, and management
                               of IT in support of agency missions and business needs.
                                                                                                  Page 1
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                             addition to the Information Systems budget of
                             $1.67 billion, for its Tier A projects that provides for
                             planning and IT acquisitions, including related
                             contractor costs. In FY 2004, the IRS requested
                             $429 million for its modernization projects. To
                             manage the Business Systems Modernization (BSM)
                             investment portfolio, the IRS has established
                             selection and monitoring processes and executive
                             steering committees to oversee project funding. To
                             obtain funding, projects must provide justification
                             and be prioritized and selected by an investment
                             review board composed of multifunctional business
                             executives.
                           • Tier B – The Tier B projects are considered
                             medium-sized projects, developed over a
                             period of up to 3 years, that modify or enhance
                             existing systems or processes and establish bridges
                             between current production systems and the new
                             modernization architecture. The Resources
                             Allocation and Measurement (RAM) organization
                             within the Modernization and Information
                             Technology Services (MITS) organization is
                             responsible for managing the IRS Tier B projects
                             and ensuring the projects are aligned with the
                             agency-wide corporate and division strategies. The
                             RAM organization also coordinates oversight
                             activities for the IT investment projects and provides
                             a consolidated view of all current and proposed
                             information systems work. In FY 2004, the IRS
                             requested approximately $50 million (9 percent) of
                             the $534 million allocated for ADP services for its
                             Tier B investment portfolio that consists of
                             20 projects.
                           • Tier C – These are small-scale projects to improve
                             or enhance existing systems or processes to sustain
                             operations. The RAM organization is also
                             responsible for managing the IRS Tier C projects
                             and maintaining the portfolio to assist the business
                             units in making investment decisions. However, a
                             portfolio of Tier C projects does not exist, and the

                                                                              Page 2
                 All Small-Scale Information Technology Projects Should
                  Be Included in the Investment Inventory, and Related
          Procurement Requisitions Should Be Properly Reviewed and Approved

                                        IRS does not account for monies spent specifically
                                        on Tier C projects.
                                 The mission of the MITS organization Division Information
                                 Officer (DIO) is to act as the MITS organization
                                 representative to the business units. When an organization
                                 identifies an IT business requirement, the DIOs ensure their
                                 customer needs are met and the MITS organization strategic
                                 plan is aligned with the business unit’s IT plan. As a result,
                                 the DIOs play a critical oversight role for the delivery of
                                 Tier B and Tier C projects, which includes assisting in the
                                 prioritization, costing, management, and coordination of the
                                 IT investment projects. In addition, the DIOs are
                                 responsible for developing the proposed Tier B and Tier C
                                 portfolio and submitting it to senior IRS management for
                                 approval.
                                 The Chief Information Officer (CIO) entered into a
                                 Memorandum of Understanding (MOU) with organizations
                                 (e.g., the Office of Chief Counsel, Appeals, and Criminal
                                 Investigation organizations) that formerly received their
                                 own IT budget allocations. These MOUs establish
                                 agreement between the organizations and the CIO as to
                                 budget formulation and execution, acceptable level of
                                 service, staffing allocations, and IT requisition procedures.
                                 This review was performed in the Office of Information
                                 Technology Services at the IRS National Headquarters in
                                 New Carrollton, Maryland, during the period June 2004
                                 through January 2005. The audit was conducted in
                                 accordance with Government Auditing Standards. Detailed
                                 information on our audit objective, scope, and methodology
                                 is presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 The Clinger-Cohen Act and Office of Management and
Completed Corrective Actions
                                 Budget (OMB) Circular A-130, Management of Federal
Improved the Capital Planning
                                 Information Resources, introduced more structure into how
and Investment Control Process
                                 agencies approach the selection, control, and evaluation of
                                 IT investment projects. For example, OMB
                                 Circular A-130 stipulates the CPIC process should include
                                 all stages of capital programming, including planning,
                                 budgeting, procurement, management, and assessment. As
                                 part of the CPIC process, agencies are required to prepare
                                                                                        Page 3
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       and maintain a portfolio of information systems to assist in
                       monitoring investments and preventing redundancy of IT
                       capabilities. In addition, an agency’s CPIC process should
                       ensure consistency with the agency’s Enterprise
                       Architecture (EA).4
                       In August 2002, we reported5 the IRS’ process for selecting
                       and monitoring systems improvement projects needed to be
                       revised to comply with Clinger-Cohen Act requirements.
                       The report recommended the IRS establish a centralized
                       process for selecting, funding, and monitoring all of its IT
                       investments. The IRS responded it would develop an IT
                       Capital Planning Guide that would address its approach to
                       manage risks and returns of IT investments by centralizing
                       the investment review process.
                       In the MITS Strategy and Program Plan (FY 2004-2005),
                       the IRS announced it was initiating a refined
                       enterprise-wide modernization governance process that will
                       include prioritizing the entire inventory of IT and
                       modernization projects on an annual basis. To accomplish
                       this, the IRS chartered the MITS Executive Governance
                       (MEG)6 Committee in November 2003. The MEG
                       Committee is responsible for approving all new projects and
                       for creating one IRS portfolio that includes all the individual
                       IRS investments. In addition, the IRS established the MEG
                       Investment Management (MIM) Subcommittee, which
                       supports the MEG Committee by ensuring IT investments
                       comply with IRS policies and procedures and align with
                       enterprise and business unit strategic goals. The MIM
                       Subcommittee is charged with providing general IT
                       investment portfolio oversight, including investment
                       prioritization recommendations, operational analysis


                       4
                         In the IRS, the EA defines the target business practices, the systems
                       that enable the target business practices, and the technology that will
                       support it, and serves as a guide to the IRS’ Modernization Program and
                       investment decisions.
                       5
                         The Selection, Monitoring, and Management of Systems Improvement
                       Projects, Such as the Print Consolidation Project, Need Modification
                       (Reference Number 2002-20-138, dated August 2002).
                       6
                         The MEG is the highest level recommending and decision-making
                       body to oversee and enhance enterprise management of information
                       systems and technology.
                                                                                      Page 4
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       reviews and reports, and recommendations for adjustments
                       to the IRS portfolio.
                       The IRS also established the CPIC Office, which is
                       responsible for ensuring the IRS portfolio management
                       process complies with the Clinger-Cohen Act. In addition,
                       the IRS is introducing a CPIC process that will manage a
                       central portfolio of IT investments across the IRS. By
                       incorporating the “select, control, and evaluate” model for
                       managing IT investments, the IRS intends to better align
                       investment with strategy and mission to ensure efficient
                       resource use and maximized rates of return. The IRS is
                       currently reviewing and revising the CPIC governance
                       process to be consistent with the OMB’s categorization of
                       projects, which are:
                           •   Development/Modernization/Enhancement (i.e., new
                               functionality).
                           •   Steady State (i.e., operations and maintenance for
                               current production environment).
                       Projects within the two categories are further divided into
                       subcategories (i.e., major, nonmajor, and small-other)
                       depending on the anticipated cost of the investment project.
                       In November 2003, we also reported7 reviews of IT
                       procurement requisitions were not consistently performed to
                       ensure computer hardware and software purchases are
                       consistent with the IRS’ current and projected EA. The
                       report stated the IRS increased the risk of obtaining
                       incompatible IT hardware and software that could
                       necessitate additional purchases to provide EA compliance
                       and increase the potential for inefficient use of resources. In
                       response, the IRS developed additional procedures,
                       published an approved computer equipment products list,
                       and conducted reviews of submitted requisitions for
                       computer hardware and software purchases to ensure
                       reviews for compliance with the EA were conducted and
                       documented.


                       7
                        Reviews to Determine Architectural Compliance of Information
                       Technology Acquisitions Need to Be Consistently Performed and
                       Documented (Reference Number 2004-20-017, dated November 2003).
                                                                                Page 5
                 All Small-Scale Information Technology Projects Should
                  Be Included in the Investment Inventory, and Related
          Procurement Requisitions Should Be Properly Reviewed and Approved

                                 A key component of the CPIC process required by OMB
The Portfolio of Information
                                 Circular A-130 is the requirement that agencies prepare and
Technology Investments Is
                                 maintain a portfolio of information systems that assists in
Incomplete
                                 monitoring investments and preventing redundancy of IT
                                 capabilities. OMB Circular A-11, Preparation, Submission,
                                 and Execution of the Budget, specifies all IT investments
                                 must be individually reported by the agency to the OMB.
                                 The Clinger-Cohen Act also requires Federal Government
                                 agencies to designate a CIO to help control system
                                 development risks and better manage IT spending.
                                 According to a Government Accountability Office (GAO)
                                 report8 issued in July 2004, CIO responsibilities considered
                                 to be critical to effective IT management included the CIO
                                 being responsible for IT capital planning and investment
                                 management and having effective control of systems
                                 acquisition, development, and integration. In
                                 November 1999, the IRS issued Policy Statement P-1-229,
                                 Management and Control of Automated Data Processing
                                 Property, which established the CIO as the IRS official
                                 responsible for ownership, management, and control of all
                                 IT property within the IRS.
                                 We are concerned about the implementation of IRS Policy
                                 Statement P-1-229, which established the MITS
                                 organization as the only organization authorized to purchase
                                 IT property. Table 1 illustrates that some non-BSM
                                 appropriated monies are placed by the CIO within the
                                 financial plans9 of organizations other than the MITS
                                 organization for expenses associated with the acquisition of
                                 IT goods and services. We reviewed the MOUs with
                                 several non-MITS organizations and noted inconsistencies
                                 in the language governing approval of IT requisitions.
                                 Table 1 also shows some IT-related funds were originally
                                 appropriated by the Congress to non-MITS organizations
                                 for the purposes of tax law enforcement, tax returns
                                 processing, tax law and account assistance, and management
                                 services. For example, of the $10.1 million appropriated to

                                 8
                                   Federal Chief Information Officers: Responsibilities, Reporting
                                 Relationships, Tenure, and Challenges (GAO-04-823, dated July 2004).
                                 9
                                   The financial plan is a comprehensive plan specifying the resources
                                 issued to IRS executives to carry out the program(s) for which they are
                                 responsible.
                                                                                                Page 6
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       non-MITS organizations without an MOU for private sector
                       data processing services (see line 3 of Table 1), the Small
                       Business/Self-Employed Division received $6.7 million for
                       a vendor to process over 4 million paper documents.
                          Table 1: Allocation of the IRS’ FY 2004 Budget for Select IT
                                              Expense Categories
                                                     IT Expense Category
                        Organization   Private Sector                                     Total Amount
                                            Data          Computer          Computer
                                        Processing        Hardware          Software
                                          Services
                        1. MITS        $275,548,211      $67,085,766       $125,552,625   $468,186,602

                        2. Non-MITS
                        With an        $22,981,459       $5,683,849         $640,586      $29,305,894
                        MOU
                        3. Non-MITS
                        Without an     $10,114,370       $1,814,849        $1,795,502     $13,724,721
                        MOU
                           Total       $308,644,040      $74,584,464       $127,988,713   $511,217,217

                       Source: IRS FY 2004 Financial Plan.

                       We reviewed all 271 requisitions for IT goods and services
                       submitted between October 1, 2003, and July 7, 2004, by
                       organizations other than the MITS organization. From the
                       271 requisitions, we identified 30 requisitions requesting
                       private sector data processing services, computer hardware,
                       and computer software associated with the development of
                       an information system. As illustrated in Table 2, system
                       development projects funded by the MITS organization via
                       an MOU and projects not funded by the MITS organization
                       were most likely not to be identified by the CPIC process
                       and individually identified in the IRS’ IT investment
                       portfolio. Although these projects were not individually
                       identified in the portfolio, the project office prepared the
                       minimum project management documents (e.g., Project
                       Management Plan, Work Breakdown Structure, and Risk
                       Management Plan) required by the IRS for system
                       development projects, and we did not identify duplicate
                       acquisition of IT goods and services.




                                                                                            Page 7
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                            Table 2: IT Requisitions Submitted by Organizations Outside
                             of the MITS Organization for System Development Projects

                                                                                             Number/
                                                                              Number of
                                                  Total       Total Amount                 Percentage
                                                                               System
                            Requisition Type    Number of           of                      of Projects
                                                                             Development
                                               Requisitions   Requisitions                 Identified in
                                                                               Projects
                                                                                             Portfolio
                            1. Funded by
                            the MITS               17         $13,376,234        11         10 (91%)
                            Organization
                            2. Funded by
                            the MITS
                                                   11         $1,483,164         5           2 (40%)
                            Organization via
                            an MOU
                            3. Not Funded
                            by the MITS             2          $400,000          1           0 (0%)
                            Organization
                                                                                     10               11
                                 Totals            30         $15,259,398       16         12 (75%)

                       Source: FY 2004 requisitions for IT goods and services.

                       In addition, requisitions submitted for IT goods and services
                       by organizations where funding was not provided by the
                       MITS organization are not being routed through the DIOs
                       within the MITS organization to ensure the projects are
                       included in the IRS’ IT investment portfolio. Maintaining
                       the IT investment portfolio is also more difficult because
                       some organizations with an MOU did not route IT
                       requisitions through their DIO. The IRS has also not
                       maintained a portfolio of Tier C projects, and monies spent
                       on Tier C projects are not accounted for separately.
                       Therefore, the IRS may not be spending its funds on IT
                       resources in the most effective and efficient manner and
                       risks spending funds on lower-priority projects.




                       10
                          Although Table 2 identifies a total of 17 system development projects,
                       there are actually only 16 projects. One project, the Automated
                       Background Investigation System, is counted twice because it was
                       funded by both the MITS organization and an organization other than
                       the MITS with an MOU.
                       11
                          The percentage of projects identifiable in the IT Portfolio is computed
                       based on 12 of the total of 16 projects (12 divided by 16 equals
                       75 percent).
                                                                                           Page 8
                 All Small-Scale Information Technology Projects Should
                  Be Included in the Investment Inventory, and Related
          Procurement Requisitions Should Be Properly Reviewed and Approved

                                 Recommendations

                                 The CIO should:
                                 1. Ensure the Internal Revenue Manual (IRM) and MOUs
                                    between the MITS and other organizations are revised,
                                    as necessary, to specify all requisitions for IT goods and
                                    services initiated by the business units are routed
                                    through the appropriate DIO and the Director, Client
                                    Services, to ensure each system development project is
                                    included in the IRS’ IT portfolio.
                                 Management’s Response: The Director, Client Services,
                                 will revise existing MOUs and work with the Directives
                                 Management Office to revise IRM 2.21.1 to specify that all
                                 IT requisitions initiated by the business units are routed
                                 through the appropriate DIO and the Director, Client
                                 Services, to ensure projects are captured and included in the
                                 IT portfolio.
                                 2. Ensure the current Tier C projects are identified and
                                    mapped into the IRS CPIC governance process for
                                    managing the IT investment portfolio.
                                 Management’s Response: The IRS will map all Tier C
                                 investments to the EA and to the EA-aligned executive
                                 steering committees, which execute the CPIC governance
                                 processes.
                                 3. Work with the Chief Financial Officer (CFO) to ensure
                                    monies spent on Tier C projects are accounted for
                                    separately.
                                 Management’s Response: The CIO, in conjunction with the
                                 CFO, will amend financial policy documents in a manner
                                 that will ensure accurate accounting of Tier C expenditures.
                                 OMB Circular A-130 outlines the major IT planning and
Requisitions for Information
                                 management requirements for Federal Government
Technology Goods and Services
                                 agencies, including that agencies develop policies and
Were Not Properly Reviewed
                                 procedures that provide for timely acquisition of required
and Approved
                                 IT. In addition, it requires agencies to document their EA
                                 and ensure EA procedures are being followed. The
                                 Department of the Treasury also stipulates that agencies are
                                 required to ensure proposed IT investments are consistent
                                                                                        Page 9
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       with the agency’s EA, and the CIO is responsible for
                       reviewing and approving all requests for IT investments.
                       IRM 2.21.1, Requisition Processing for Information
                       Technology Products and Services, was issued to improve
                       accountability and standardize the IT requisition process by
                       providing specific guidance to all IRS personnel on the
                       critical elements necessary to complete the requisition
                       approval process. According to the IRM, the CIO has
                       responsibility for all IT purchases of products and services
                       acquired by the IRS. The IRM also stipulates that the MITS
                       organization is responsible for approving IT requisitions and
                       that MITS executives are accountable for ensuring their
                       accuracy.
                       All requisitions submitted for IT goods and services require
                       several reviews prior to approval, including a Tier Review
                       that consists of an architectural, engineering, capacity, or
                       standards review to ensure compliance with the IRS’ EA.
                       The Tier Owner, which is the IRS organization responsible
                       for reviewing the requisition to ensure compliance with EA
                       standards for hardware and software, depends upon the
                       Tier Level of the IT equipment (i.e., Tier I – Mainframes,
                       Tier II – Servers, and Tier III – Desktops and Laptops).
                       Once all the appropriate reviews have taken place, a
                       Requisition Summary must be developed and attached to the
                       requisition within the web Request Tracking System
                       (webRTS)12 summarizing the findings. Afterwards, the
                       requisition is provided to the requisition approving authority
                       to ensure the requisition is fully compliant with IRS
                       requirements for processing IT requisitions.
                       In August 2000, the IRS Commissioner issued Delegation
                       Order (D.O.) 261, which delegated to the CIO the authority
                       to acquire IT. In addition, D.O. 261 authorized the CIO to
                       redelegate the authority to senior executives within the
                       MITS organization. As a result, the CIO issued D.O. 28 to
                       provide MITS organization executives with delegated
                       signature authority for approving IT requisitions submitted


                       12
                         The webRTS is a web-based application that provides users the
                       capability to create, route, approve, and fund requisitions for goods and
                       services.
                                                                                       Page 10
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       for IT goods and services. D.O. 28 also authorized MITS
                       organization executives to redelegate approval to their
                       senior managers. In addition, the CIO published a
                       Requisition Signatory Authority List, which specifically
                       identifies the persons authorized to approve requisitions for
                       IT goods and services based on D.O. 28 and any
                       redelegation orders. Evidence that the requisition was
                       approved by someone authorized by D.O. 28 or a
                       redelegation order must be reflected in either the requisition
                       approval path or history record within the webRTS. Once
                       the review and approval process is complete, the requisition
                       is forwarded to the Office of Procurement for processing.
                       While these IRS-developed procedures comply with OMB
                       and Department of the Treasury requirements, the DIOs do
                       not consistently review the IT requisitions to ensure reviews
                       and approvals are conducted as required by the CIO in
                       IRM 2.21.1. Overall, our review of the 30 requisitions
                       identified that requisitions were not properly approved and
                       Requisition Summaries were not prepared and attached to
                       the requisitions within the webRTS. Table 3 provides
                       details of our analysis of these requisitions.
                          Table 3: IT Requisitions Submitted by Organizations Outside
                                          of the MITS Organization

                                                            Number/
                                               Total                       Number/Percentage
                                                           Percentage
                         Requisition Type    Number of                      With Requisition
                                                            Properly
                                            Requisitions                   Summary Attached
                                                            Approved
                         1. Funded by
                         the MITS               17          16 (94%)             7 (41%)
                         Organization
                         2. Funded by
                         the MITS
                                                11          2 (18%)              2 (18%)
                         Organization via
                         an MOU
                         3. Not Funded
                         by the MITS             2           0 (0%)              0 (0%)
                         Organization

                              Totals            30          18 (60%)             9 (30%)

                       Source: FY 2004 requisitions for IT goods and services.

                       Since Tier Reviews were required only on the requisitions
                       submitted for the acquisition of computer hardware or
                       software, only 6 of the 17 requisitions funded by the MITS
                       organization, and 4 of the 11 requisitions funded by the
                                                                                     Page 11
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       MITS organization via an MOU, were analyzed to
                       determine if a Tier Review was completed to ensure
                       compliance with the IRS’ EA. Table 4 provides details of
                       our Tier Review analysis.
                             Table 4: Tier Reviews for IT Requisitions Submitted by
                                Organizations Outside of the MITS Organization
                                                             Number of             Number/
                                            Total Number
                                                            Requisitions       Percentage With
                         Requisition Type         of
                                                           Requiring a Tier      Tier Review
                                            Requisitions
                                                              Review          Properly Annotated
                         1. Funded by
                         the MITS               17                6                 2 (33%)
                         Organization
                         2. Funded by
                         the MITS
                                                11                4                 0 (0%)
                         Organization via
                         an MOU
                         3. Not Funded
                         by the MITS             2                0              Not Applicable
                         Organization

                              Totals            30               10                 2 (20%)

                       Source: FY 2004 requisitions for IT goods and services.

                       The processing of IT requisitions that do not adhere to IRS
                       management controls for proper reviews and approvals and
                       the attachment of a Requisition Summary increases the risk
                       that the IRS might acquire IT systems that are not
                       compatible with the EA. In addition, the Requisition
                       Signatory Authority List, which is used to ensure
                       requisitions have been properly approved prior to being
                       forwarded to the Office of Procurement for processing, has
                       not been consistently updated to reflect the persons
                       authorized to approve requisitions for IT goods and services
                       based on the preparation of redelegation orders under
                       D.O. 28. This occurred because IRM 2.21.1 did not specify
                       the MITS organization responsible for updating the
                       Requisition Signatory Authority List, which is posted on the
                       MITS Directives Management Office’s web site.

                       Recommendations

                       The CIO should ensure:
                       4. The IRM and MOUs between the MITS and other
                          organizations are revised, as necessary, to specify all
                                                                                       Page 12
                 All Small-Scale Information Technology Projects Should
                  Be Included in the Investment Inventory, and Related
          Procurement Requisitions Should Be Properly Reviewed and Approved

                                    requisitions for IT goods and services initiated by the
                                    business units are routed through the appropriate DIO
                                    and the Director, Client Services, to ensure proper
                                    reviews and approvals are obtained and a Requisition
                                    Summary is attached to the requisition.
                                 Management’s Response: The Director, Client Services,
                                 will work with the Directives Management Office to ensure
                                 IRM 2.21.1 and the MOUs incorporate language specifying
                                 that the business units route all IT requisitions through the
                                 appropriate DIO and Director, Client Services. The
                                 Director, Client Services, will also ensure the DIOs review
                                 and approve requisitions in accordance with IRM 2.21.1 and
                                 D.O. 28 and guarantee a Requisition Summary is
                                 appropriately attached.
                                 5. The Requisition Signatory Authority List is updated and
                                    the IRM is revised to specify the organization
                                    responsible for maintaining it and forwarding a copy to
                                    the Directives Management Office.
                                 Management’s Response: The Director, Financial
                                 Management Services, will establish an annual process for
                                 updating the Requisition Signatory Authority List and will
                                 forward a copy to all relevant offices, including the
                                 Directives Management Office. In addition, the Director,
                                 Financial Management Services, will ensure the appropriate
                                 IRM is updated to this effect.
                                 The Clinger-Cohen Act requires each agency to establish a
Project Costs Were Not
                                 process for maximizing the value and assessing and
Accurately Recorded
                                 managing the risks of IT projects. It also requires agencies
                                 to identify significant deviations from costs, performance, or
                                 schedule. The Department of the Treasury stipulates that
                                 project costs include accounting for the spending of all
                                 resources, including items such as the cost of staff hours,
                                 contractor costs, equipment, and maintenance. To
                                 accurately capture project costs, IRS procedures require the
                                 tracking of IT expenditures within the IRS’ financial system
                                 using a five-digit subproject code called the Project Cost
                                 Accounting Subsystem (PCAS) code. Labor costs are also
                                 tracked through the payroll system by entering the code with
                                 the time and attendance records.

                                                                                       Page 13
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       While the PCAS code was designed to track costs by each
                       IT investment project, we found project costs were not
                       always charged to the appropriate PCAS code. For
                       example, we identified 3 requisitions totaling $681,522
                       submitted for the Automated Background Investigation
                       System (ABIS) on which the expenses were charged to
                       3 separate PCAS codes.13 Of the three PCAS codes
                       associated with the requisitions, none were the correct
                       PCAS code that had been established for the ABIS project.
                       We also identified 7 requisitions totaling $726,174 for 2 IT
                       investment projects that were not assigned a unique PCAS
                       code for tracking expenditures. Appendix IV presents
                       details on the reliability of information outcome measure
                       resulting from the recording of these costs.
                       By not properly accounting for all costs, the IRS cannot
                       determine the actual results of the IT investment and comply
                       with the Clinger-Cohen Act requirements to identify
                       significant deviations from costs, performance, or schedule.
                       The inaccurate capturing of project costs occurred because
                       requisitions submitted for IT goods and services by
                       organizations funded by the MITS organization via an MOU
                       and non-MITS organizations are not being routed through
                       the DIOs to ensure the expenditures are attributed to the
                       correct PCAS code for the IT investment project.

                       Recommendations

                       The CIO should ensure:
                       6. The IRM is revised to specify all requisitions for IT
                          goods and services initiated by the business units are
                          routed through the appropriate DIOs and the Director,
                          Client Services, to ensure the IT investment project is
                          assigned and uses a unique PCAS code.
                       Management’s Response: The Director, Client Services,
                       will work with the Directives Management Office to ensure


                       13
                         The projects identified by the PCAS codes associated with the three
                       requisitions for the ABIS project included Security (Maintain and
                       Enhance Security Policy and Planning Capabilities), Employee
                       Resource Center, and National Background Investigations.
                                                                                     Page 14
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                       IRM 2.21.1 incorporates language specifying the business
                       units route all requisitions they initiate through the
                       appropriate DIO and Director, Client Services. In addition,
                       the Director, Client Services, will ensure the DIOs review
                       all requisitions to ensure appropriate PCAS codes are used.
                       7. A mechanism is designed and implemented to ensure all
                          IT expenses are accurately identified and associated with
                          each IT investment project, regardless of the funding or
                          PCAS codes used.
                       Management’s Response: IRS management did not agree
                       with this recommendation on the basis that the adoption of
                       the other recommendations constitutes an effective
                       mechanism to ensure the accurate identification and
                       association of all IT expenses with each IT investment
                       project.
                       Office of Audit Comment: While IRS management
                       disagreed with the recommendation, we agree the corrective
                       actions they plan to take will address the recommendation.




                                                                           Page 15
                   All Small-Scale Information Technology Projects Should
                    Be Included in the Investment Inventory, and Related
            Procurement Requisitions Should Be Properly Reviewed and Approved

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue
Service (IRS) ensures information technology (IT) goods and services procured outside of the
Modernization and Information Technology Services (MITS) organization are effectively
controlled, compliant with the Enterprise Architecture (EA),1 do not duplicate other systems or
initiatives, and follow a disciplined systems development life cycle. To accomplish this
objective, we:
I.      Reviewed national policies, procedures, and directives for providing management
        controls over the procurement of IT goods and services to determine whether sufficient
        controls were in place over procurements made outside the MITS organization. We also
        interviewed management to determine the roles and responsibilities for monitoring
        procurements, identified additional guidelines for processing requisitions for IT goods
        and services, and reviewed best practices for ensuring acquired IT goods and services are
        compliant with the EA and do not duplicate other systems or initiatives.
II.     Reviewed all 271 requisitions submitted for private sector data processing services,
        computer hardware, and computer software between October 1, 2003, and July 7, 2004,
        by organizations other than the MITS organization and determined whether each
        requisition was associated with a system development effort and under what contract the
        requisition was awarded. For the 30 requisitions that were determined to be associated
        with a system development effort, we determined whether the system development
        project was managed by the Business Systems Development office and whether the
        project was included in the IRS’ IT portfolio. We also determined whether the
        30 requisitions were properly reviewed and approved and whether the requisitions
        contained a Requisition Summary. In addition, we determined whether the project
        duplicated other systems or initiatives and whether the project office followed a Systems
        Development Life Cycle methodology.
III.    Evaluated the results of the corrective actions taken by management to address the
        internal controls weaknesses over processing IT requisitions reported by the Treasury
        Inspector General for Tax Administration in November 2003.2 For example, we
        interviewed management on the status of the implemented corrective actions, reviewed
        documents supporting the implementation of proposed corrective actions taken, and
        determined whether those actions adequately addressed the reported control weaknesses.

1
  The EA defines the IRS’ target business practices, the systems that enable the target business practices, and the
technology that will support it, and serves as a guide to the IRS’ Modernization Program and investment decisions.
2
  Reviews to Determine Architectural Compliance of Information Technology Acquisitions Need to Be Consistently
Performed and Documented (Reference Number 2004-20-017, dated November 2003).
                                                                                                           Page 16
                All Small-Scale Information Technology Projects Should
                 Be Included in the Investment Inventory, and Related
         Procurement Requisitions Should Be Properly Reviewed and Approved

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Van Warmke, Lead Auditor
Charlene Elliston, Auditor
Steven Gibson, Auditor
Olivia Jasper, Auditor




                                                                                         Page 17
                All Small-Scale Information Technology Projects Should
                 Be Included in the Investment Inventory, and Related
         Procurement Requisitions Should Be Properly Reviewed and Approved

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Associate Chief Information Officer, Management OS:CIO:M
Director, Financial Management Services OS:CIO:FM
Director, Resources Allocation and Measurement OS:CIO:R
Director, Stakeholder Management OS:CIO:SM
Director, Business Systems Development OS:CIO:I:B
Director, Enterprise Operations OS:CIO:I:EO
Director, End User Equipment and Services OS:CIO:I:EU
Director, Client Services OS:CIO:I:B:DIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief Financial Officer OS:CFO
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                     Page 18
                   All Small-Scale Information Technology Projects Should
                    Be Included in the Investment Inventory, and Related
            Procurement Requisitions Should Be Properly Reviewed and Approved

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $1,407,696 in project expenditures (see page 13).
Methodology Used to Measure the Reported Benefit:
To accurately capture Information Technology (IT) project costs, the Internal Revenue Service
tracks expenditures within its financial system using a five-digit subproject code called the
Project Cost Accounting Subsystem (PCAS) code. We identified 3 requisitions totaling
$681,522 submitted in Fiscal Year (FY) 2004 for the Automated Background Investigation
System (ABIS) project on which the expenses were charged to 3 separate PCAS codes. Of the
three PCAS codes associated with the requisitions, none were the correct PCAS code that had
been established for the ABIS project. Table 1 provides a listing of the IT requisitions submitted
for the ABIS project and the projects that were charged with the ABIS project expenses.
           Table 1: IT Requisitions Submitted for the ABIS Project but Charged to Other Projects

     Requisition Number            Expense Type           Expense             Project Charged With Expense
                                                          Amount

 M-4-M9-22-NB-A44-000         Computer Equipment            $98,859   Security – Maintain and Enhance Security Policy
                                                                      and Planning Capabilities

 P-4-P1-30-NB-A19-000         Data Processing Services     $270,000   Employee Resource Center


 M-4-M9-22-NB-A19-000         Data Processing Services     $312,663   National Background Investigations


                                Total Expense Amount       $681,522
Source: FY 2004 requisitions for IT goods and services.

In addition, we identified two IT investment projects that were not assigned a unique PCAS code
for tracking expenditures, and the project costs were charged to PCAS codes that included
several activities. Specifically, 5 requisitions totaling $326,174 were submitted for the
Enterprise Mission Assurance Portal (EMAP) project and 2 requisitions totaling $400,000 were
submitted for the Internal Revenue Manual (IRM) e-Clearance project. Table 2 provides a
listing of the IT requisitions submitted for the EMAP and IRM e-Clearance projects and the
associated project expenses.


                                                                                                            Page 19
                   All Small-Scale Information Technology Projects Should
                    Be Included in the Investment Inventory, and Related
            Procurement Requisitions Should Be Properly Reviewed and Approved

            Table 2: IT Requisitions Submitted for IT Projects Without an Assigned PCAS Code

         Project                 Requisition Number               Expense Type            Expense
                                                                                          Amount
 EMAP                     M-4-M9-01-MA-S26-000            Computer Hardware                      $5,985


 EMAP                     M-4-M9-01-MA-S02-000            Data Processing Services              $25,000


 EMAP                     M-4-M9-01-MA-S08-000            Data Processing Services              $25,000


 EMAP                     M-4-M9-2A-AP-S00-000            Data Processing Services              $70,189


 EMAP                     M-4-M9-01-MA-S21-000            Data Processing Services             $200,000


 IRM e-Clearance          M-4-M0-25-SP-A41-000            Data Processing Services             $200,000


 IRM e-Clearance          M-4-M0-25-SP-B01-000            Data Processing Services             $200,000


                                                                   Total Expense Amount        $726,174

Source: FY 2004 requisitions for IT goods and services.




                                                                                                  Page 20
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved

                                                             Appendix V


          Management’s Response to the Draft Report




                                                                    Page 21
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved




                                                                    Page 22
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved




                                                                    Page 23
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved




                                                                    Page 24
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved




                                                                    Page 25
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved




                                                                    Page 26
       All Small-Scale Information Technology Projects Should
        Be Included in the Investment Inventory, and Related
Procurement Requisitions Should Be Properly Reviewed and Approved




                                                                    Page 27
